Audit Report

Office for Victims of Crime 
Antiterrorism and Emergency Program Grants for Victim Assistance 
Administered by the New York State Crime Victims Board, Albany, New York
Grant Numbers 2001-RF-GX-0001 and 2002-RF-GX-005

Report No. GR-70-05-002


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Antiterrorism and Emergency Assistance Program grant awarded by the U.S. Department of Justice, Office of Justice Programs, Office for Victims of Crime, to the New York State Crime Victims Board (Board).  The purpose of these grants is to provide assistance to victims of the terrorist attacks of September 11, 2001.  

We tested the Board's accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.

The Board generally complied with the requirements of these two grants.  However, we determined the Board lacks adequate controls to ensure the proper drawdown of grant funds.  In addition, the Board was not timely in providing progress reports to the Office of Justice Programs.

Our audit findings and results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.